No.

 

IN THE

Supreme Court of the Anited States

BANK OF AMERICA CORPORATION, ET AL.,

Petitioners,
Vv.

FUND LIQUIDATION HOLDINGS LLC, as assignee and
successor-in-interest to FrontPoint Asian Event
Driven Fund L-P., on behalf of itself and all others
similarly situated, SONTERRA CAPITAL MASTER FUND,
LTD., ET AL.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

PETITION FOR WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,076 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 1, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
